     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




  Contract Delays Led to Cost Overruns for the Kabul
Power Plant and Sustainability Remains a Key Challenge




                                  January 20, 2010




SIGAR Audit-10-6 Contractor Performance and Oversight
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


January 20, 2010

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

William M. Frej
USAID Mission Director to Afghanistan

This report presents the results of our review of U.S. assistance to the Government of the Islamic
Republic of Afghanistan to construct the 105 megawatt Kabul Power Plant at a total cost of more than
$300 million. This report updates and builds upon the audit report issued by the Office of the Inspector
General of the U.S. Agency for International Development (USAID) in November 2009, which provided a
number of recommendations designed to improve the management of the Kabul Power Plant contract.
In addition to the concerns raised by the Office of the USAID Inspector General, we are concerned that
the long-term sustainability of the plant could be compromised by the decision to build a dual fuel plant
that is capable of running on diesel or heavy fuel oil. The use of heavy fuel oil requires a level of
technical knowledge and sophistication which may prove difficult for the Afghans to achieve–with no
clear economic benefit compared to running the plant exclusively on diesel fuel. In line with this
concern, this report includes a recommendation to USAID to help ensure the project is maintained in a
sustainable manner.

A summary of this report is on page ii. The audit was conducted by the Office of the Special Inspector
General for Afghanistan Reconstruction (SIGAR) under the authority of Public Law 110-181, Section
1229, and the Inspector General Act of 1978, as amended. When preparing the final report, we
considered joint comments from the U.S. Embassy Kabul and the USAID Mission in Afghanistan and
comments provided by USAID’s prime contractor for the Kabul Power Plant. These comments indicated
concurrence with the findings and recommendation in this report. Copies of these comments are
provided in appendices III and IV to this report.



John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction
SIGAR Audit-10-6 Contractor Performance and Oversight                                              Page i
                                                                           SIGAR Audit-10-6                                January 2010


                     SIGAR
                                                       Special inspector General for Afghanistan Reconstruction


                                                                           Contract Delays Led to Cost Overruns for the
                 .
                                                                           Kabul Power Plant and Sustainability
    Special Inspector General for Afghanistan Reconstruction               Remains a Key Challenge
 What SIGAR Reviewed

 The United States, other international donors, and the Afghan government agree that improving Afghanistan’s energy infrastructure is
 essential for the future economic progress and the long-term viability of the elected government of Afghanistan. This report assesses
 assistance provided by the U.S. Agency for International Development (USAID) to Afghanistan to build a 105 megawatt power plant on
 the outskirts of Kabul. Building on the results of an audit of the Kabul Power Plant issued by the Office of the USAID Inspector General
 in November 2009, our report provides an updated assessment of (1) the basis for reported project delays and cost overruns, (2)
 actions taken to respond to these problems, and (3) whether the Afghan government will be able to sustain the plant’s operations.
 SIGAR conducted this performance audit in Kabul, Afghanistan and Washington, D.C. from August to December 2009 in accordance
 with generally accepted government auditing standards.

 What SIGAR Found
 Under the direction of USAID’s general contractor (Black & Veatch), the plant was originally scheduled for completion by March 31,
 2009; however, due to project delays the plant’s current completion date has been moved to March 31, 2010 or 12 months behind
 schedule. The Kabul Power Plant’s total project costs have risen to approximately $300 million—of which $40 million has been directly
 linked to project delays. As discussed in the Office of the USAID Inspector General’s report, factors contributing to this delay included (1)
 an initial inability to obtain adequate title to land for construction, (2) USAID’s inclusion of an ambiguous statement of work resulting in
 poor planning and implementation, (3) Black & Veatch delays in subcontractor award and mobilization, (4) subcontractor performance
 problems related to generator delivery delays and an inability to find enough qualified workers to keep the project on schedule, (5) lack
 of on-site quality assurance, (6) delays in getting timely approvals from USAID’s contracting officer, (7) poor communication between
 USAID and Black & Veatch, and (8) transportation and customs clearance problems.
 USAID and Black & Veatch have taken steps to address these problems and mitigate the impact of cost overruns. These steps include
 preparing a project execution plan in July 2009 and a related detailed work plan, hiring an independent contractor to provide USAID
 with on-site quality assurance reporting, developing an internal USAID assessment of lessons learned on the Kabul Power Plant and
 other USAID-funded infrastructure projects in Afghanistan, and instituting lower-cost engineering options where feasible. The success of
 these efforts is evidenced by the fact that USAID and Black & Veatch met the revised deadline of having all 18 generators on line by
 December 2009; efforts to complete balance-of-plant construction by March 31, 2010 appear to be on schedule; and SIGAR estimates
 that USAID implemented cost-saving measures have lowered overall project costs by $5 million.

 The long-term sustainability of the Kabul Power Plant depends, in part, on the ability of the Government of the Islamic Republic of
 Afghanistan’s (GIRoA) to fund required fuel purchases and operations and maintenance (O&M) costs. Despite the initial commitment to
 cover these costs, the GIRoA will likely require assistance to cover fuel expenses and USAID has already agreed to provide O&M support
 for several years after the plant’s completion in order to protect the United States’ $300 million investment. USAID and other
 international donors have taken steps to assist the GIRoA with long-term commercialization efforts designed to generate sufficient
 revenues to allow the government to cover its fuel costs and O&M expenses. If these commercialization efforts falter, the United States
 may face the difficult decision whether to continue funding the operation of the Kabul Power Plant or allowing it to fall into disuse. The
 long-term sustainability of the Kabul Power Plant is further complicated by the initial design decision to build a dual fuel plant (that is,
 capable of running on diesel or heavy fuel oil) as opposed to a diesel-only plant since heavy fuel oil is not commercially available in
 Afghanistan and requires more technical knowledge and sophistication to operate.

 What SIGAR Recommends
 To help ensure the long-term sustainability of the Kabul Power
 Plant, SIGAR recommends that the USAID Mission Director in
 Afghanistan produce a definitive study on the technical                                                                       USAID, Black
 feasibility and`advisability of using heavy fuel in the Kabul                                                                 & Veatch,
 Power Plant and factor this information into plant completion                                                                 and SIGAR
 decisions and any decisions regarding post-construction use of                                                                staff visit to
 heavy fuel oil by the GIRoA.                                                                                                  the Kabul
                                                                                                                               Power Plant
 For more information contact: SIGAR Public affairs at (703) 602-8742 or            i
 PublicAffairs@sigar.mil                                                                Source: SIGAR



SIGAR Audit-10-6 Contractor Performance and Oversight                                                                                  Page ii
TABLE OF CONTENTS



Background                                                                                    2

Numerous Factors Contributed to Project Delays, Resulting in A $40 Million Cost Overrun       4

Steps Taken to Address the Causes of Project Delays and Reduce Total Project Costs            7

Significant Risks to Sustainability Exist                                                   10

Conclusions                                                                                 13

Recommendation                                                                              13

Comments                                                                                    13

Appendix I:      Scope and Methodology                                                      14

Appendix II:     Task Order 9 Contract Modifications                                        15

Appendix III:    Comments from USAID Embassy Kabul and USAID Mission to Afghanistan         17

Appendix IV:     Comments from Black & Veatch                                               21


TABLES

Table 1:         Factors Contributing to Project Delays                                       5


ABBREVIATIONS

AIRP             Afghanistan Infrastructure and Rehabilitation Program
COTR             Contracting Officer’s Technical Representative
GIRoA            Government of the Islamic Republic of Afghanistan
IQC              Indefinite Quantity Contract
NEPS             North East Power System
O&M              Operations and Maintenance
SIGAR            Special Inspector General for Afghanistan Reconstruction
USAID            U.S. Agency for International Development




SIGAR Audit-10-6 Contractor Performance and Oversight                                     Page iii
                  Contract Delays Led to Cost Overruns for the Kabul Power
                      Plant and Sustainability Remains a Key Challenge


Years of conflict severely damaged Afghanistan’s generation, transmission, and power systems—leaving
the country with an aging, inefficient, and incomplete power network. The national electrification rate is
10 percent and only about a third of the households in Kabul are connected to service, which
experiences frequent outages. As highlighted in the Afghanistan National Development Strategy and
other key planning documents, the United States, other international donors, and the Afghan
government agree that improving this key component of Afghanistan’s infrastructure, through projects
such as the Kabul Power Plant, is essential for the future economic progress and the long-term viability
of the elected government of Afghanistan.

This report assesses assistance provided by the U.S. Agency for International Development (USAID) to
the Government of the Islamic Republic of Afghanistan (GIRoA) to build a 105 megawatt 1 power plant
on the outskirts of Kabul which, as reported by the Office of the USAID Inspector General in its
November 2009 report, 2 is 12 months behind schedule and $40 million over budget.

Building on the results of the Office of the USAID Inspector General’s report, our report provides an
updated assessment of (1) the basis for reported project delays and cost overruns, (2) actions taken to
respond to these problems, and (3) whether the Afghan government will be able to sustain the plant’s
operations upon completion. To achieve these objectives, we coordinated our efforts with the Office of
the USAID Inspector General to avoid potential duplication of audit activities. We reviewed U.S. and
Afghan energy sector strategies, USAID contacting policies and guidelines, and contracting documents
provided by U.S. government officials and contracting officials in Washington, D.C., and Kabul,
Afghanistan. We also interviewed USAID, contractor, and Afghan government officials with
implementation and oversight responsibilities for the plant’s construction and future operations. Finally,
we conducted an on-site inspection of the plant in September 2009 to verify and review construction
progress and quality. We conducted our work in Kabul, Afghanistan, and Washington, D.C., from August
to December 2009 in accordance with generally accepted government auditing standards. A discussion
of our scope and methodology is included in appendix I.




1
    A megawatt equals one million watts.
2
 See Audit of USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan Infrastructure Rehabilitation
Program, Office of the Inspector General, USAID. (Audit Report No. 5-306-10-002-P, Manila, Philippines, November
10, 2009). This report is based on fieldwork conducted in Afghanistan through May 2009.
SIGAR Audit-10-6 Contractor Performance and Oversight                                                  Page 1
BACKGROUND
Beginning in 2003, the United States and other foreign donors launched an energy sector assistance
program, consistent with the Afghanistan National Development Strategy, which attempted to address
Afghanistan’s chronic shortage of electricity through a wide variety of infrastructure, commercialization,
and sustainability projects. 3 As part of this assistance program, USAID agreed in May 2007 to provide the
GIRoA with a 105 megawatt, diesel-powered plant in Kabul with 18 generators organized in three blocks
(referred to as blocks A, B, and C) of 6 generators each—with each block capable of generating 35
megawatts of electricity. With a contract start date of July 2007, blocks A and B were originally
scheduled to be operational by December 2008, with block C and the balance-of-plant operational by
March 31, 2009. USAID officials noted that this represented a highly ambitious construction schedule for
a plant of this type in a country like Afghanistan. Therefore, the Kabul Power Plant was considered a
“fast track” project from the start.

USAID’s decision to a build a power plant in Kabul was based on a number of factors including:

    •   Concerns that a lack of power in Kabul during the winter of 2008/2009 could affect national
        election results in 2009.

    •   Additional power needs in Kabul expected for the winter of 2008/2009 due to an expected
        shortfall in electricity from the donor-funded North East Power System. 4

    •   A desire to provide Kabul with a back-up/peaking source of energy in anticipation of rapid
        growth in Kabul’s demand for electricity; expected shortfalls in hydroelectric power availability
        during the winter months; 5 and potential shortfalls due to insurgent attacks on Afghanistan’s
        electric infrastructure, natural disasters, or neighboring country decisions to reduce power
        exports.

    •   A desire to provide a cheaper alternative to Kabul’s older, less efficient diesel power plant.



3
 SIGAR recently issued an audit report evaluating the donors’ energy sector assistance strategy in Afghanistan. See
Afghanistan Energy Supply Has Increased but An Updated Master Plan Is Needed and Delays and Sustainability
Concerns Remain, SIGAR-Audit-10-4 (Washington, D.C. Jan. 15, 2010).
4
 The North East Power System (NEPS) is expected to provide Afghanistan with up to 500 megawatts of daily
imported electricity from Uzbekistan, Tajikistan, and Turkmenistan. According to USAID officials, it became
apparent in early 2007 that NEPS was unlikely to meet its target date for commercial operations of October 2008,
putting Kabul’s winter power supply at risk.
5
  USAID officials noted that the Kabul Power Plant will be used sparingly when cheaper sources of power are
available, while potentially running 24 hours a day, seven days a week when lower cost options are not available
(for example, during the Winter months when water levels are low and hydro electric power is less plentiful).
USAID officials noted that power sources such as hydro electric or imported electricity cost, respectively, one-
fiftieth and one-fifth the expected per kilowatt hour cost of electricity versus the Kabul Power Plant. The per
kilowatt hour cost of the Kabul Power Plant, in turn, is estimated to be approximately half the cost of running
Kabul’s older and less efficient diesel generator plant.


SIGAR Audit-10-6 Contractor Performance and Oversight                                                     Page 2
Contract Organization and Requirements
The contract for the Kabul Power Plant was awarded to the Louis Berger Group, Inc./Black & Veatch
Joint Venture as a cost-plus-fixed-fee contract completion task order (task order 9) in July 2007. This
task order is part of USAID’s $1.4 billion indefinite quantity contract (IQC) for its Afghanistan
Infrastructure and Rehabilitation Program (AIRP) awarded in August 2006 to the Joint Venture. 6 Task
order 9 was divided into eight sub-tasks, as follows:

       •   Civil site work. Design and land preparation of the power plant, sub-station, and transmission
           line.

       •   18 diesel generators and associated equipment.

       •   Balance-of-plant construction. All electro-mechanical installation and provision of associated
           equipment required for power plant operations.

       •   Connect the plant to the Kabul grid. Construct a switchyard with transmission lines from the site
           to the existing Kabul grid.

       •   Logistics services including shipping the power plant equipment from the manufacturing
           facilities to the Kabul site

       •   Security services.

       •   Camp construction. Fabricating, delivering, and installing office buildings, accommodation units,
           laundries, kitchens, recreation buildings, server buildings and storage facilities.

       •   Operating and maintaining the camp facilities.

Black & Veatch served as the Joint Venture’s general contractor for task order 9 and awarded three
primary contracts—one to Caterpillar Power Generation Systems for the manufacture of generators and
related equipment at its facilities in Germany and Mexico, one to a Symbion Power/AREVA joint venture
for the plant substation and connecting power lines, and one to Symbion Power for balance-of-plant
construction. In a contract dispute with Black & Veatch, Symbion Power ceased work on the balance-of-
plant contract effective June 2, 2009, after a two-week notice period, upon which Black & Veatch
assumed Symbion Power’s contract responsibilities. 7




6
    This IQC covers most of USAID’s large-scale construction projects in Afghanistan.
7
 Black & Veatch and Symbion Power have filed claims with the International Chamber of Commerce regarding a
range of complex issues. The chamber’s arbitration process will likely take approximately 12 more months with a
hearing expected in early 2011. A final decision is expected a few months after the hearing.
SIGAR Audit-10-6 Contractor Performance and Oversight                                                    Page 3
Photo of Kabul Power Plant as of October 21, 2009




Source: Black & Veatch



NUMEROUS FACTORS CONTRIBUTED TO PROJECT DELAYS, RESULTING IN A $40 MILLION COST
OVERRUN
The Kabul Power Plant is behind schedule and over budget due to a wide range of factors attributable to
USAID, Black & Veatch, and subcontractor mismanagement. Between initial contract award in July 2007
and December 2008, USAID issued 15 contract modifications which progressively raised contract costs
from approximately $125 million for initial long-lead equipment and design to nearly $260 million for
the total plant construction, commissioning, and initial operations and maintenance. 8 A later
modification to task order 9 extended the project’s final completion by 12 months to March 31, 2010,
and raised total project costs by nearly $40 million to a total of approximately $300 million. In contrast
to earlier cost increases, USAID officials noted the $40 million in additional program costs resulted
directly from the failure to meet the original project completion dates. Although these initial deadlines
were missed, SIGAR noted that the first six generators in block A were fully commissioned and
connected to the Kabul power grid in July 2009. In addition, according to Black & Veatch officials, blocks
B and C became operational in December 2009 and all 18 generators are now available to provide up to
105 megawatts of power to the Kabul electrical grid, leaving only balance-of-plant construction to be
completed.

The Office of the USAID Inspector General’s report identified a number of factors that contributed to
delays in the plant’s construction. As shown in table 1, these factors included (1) an initial inability to
obtain adequate title to land for construction, (2) USAID’s inclusion of an ambiguous statement of work

8
    See appendix II for a complete description of all task order modifications.
SIGAR Audit-10-6 Contractor Performance and Oversight                                               Page 4
resulting in poor planning and implementation, (3) Black & Veatch’s delays in subcontractor award and
mobilization, (4) subcontractor performance problems, (5) delays in getting timely approvals from
USAID’s contracting officer, (6) lack of on-site quality assurance, (7) inconsistent communication
between USAID and Black & Veatch, and (8) transportation and customs problems.

Table 1: Factors Contributing to Project Delays
 Factors                           Office of the USAID Inspector General’s Findings

 Land Issues                       The project was partly delayed by a land ownership issue which took
                                   almost a year to resolve due to USAID/Afghanistan’s failure to obtain an
                                   advance commitment from the host government.

 Ambiguous Statement of Work       Under the pressure of political urgency, the mission wrote a vaguely
                                   worded statement of work. The original statement of work was not
                                   comprehensive and did not require specific deliverables with concrete
                                   delivery dates. Black & Veatch commented that, under normal
                                   circumstances, it would have submitted a comprehensive schedule,
                                   detailing the required resources along with a list of critical tasks that must
                                   be implemented on time to prevent delays in the project. However, to
                                   complete the project by the required date, the project was carried out as a
                                   series of separate tasks specified by the mission. For example, the initial
                                   award included only the purchase of equipment to be manufactured, such
                                   as the 18 generators and supporting equipment, and an initial search for
                                   potential bidders for other critical tasks, such as constructing the
                                   transmission lines to the main power grid. Modifications were made
                                   subsequently, as the project progressed, without the benefit of a mission-
                                   or contractor-developed construction schedule.

 Delays in Subcontract Award and   Numerous delays occurred in the award and mobilization of the
 Mobilization                      subcontract. According to the Office of the USAID Inspector General’s
                                   report, Black & Veatch told Symbion Power its subcontract would be
                                   awarded in April 2008 and that its mobilization efforts could begin in May
                                   2008. However, the final subcontract was not signed until early June 2008,
                                   putting the subcontractor a month behind schedule from the start.
                                   Symbion Power’s mobilization encountered delays as well. Black & Veatch
                                   was supposed to provide Symbion Power with certain work site
                                   infrastructure by the end of June 2008, including office and residential
                                   space as well as site preparation. However, when Symbion Power
                                   mobilized, it discovered that these items had not been completed.
                                   Symbion Power stated that the site preparation was not completed until
                                   approximately the end of August 2008 and that its offices were not
                                   completed until mid-September 2008.

 Subcontractor Performance         Caterpillar—the firm that manufactured the 18 generators—notified Black
 Problems                          & Veatch that a quality control problem would delay delivery of the
                                   generators for blocks B and C. The delivery schedule for block B slipped by
                                   88 days and for block C by 15 days.

                                   Symbion Power had trouble obtaining qualified local labor and was slow to
                                   respond to the Black & Veatch’s request to use more foreign labor.

SIGAR Audit-10-6 Contractor Performance and Oversight                                                    Page 5
 Factors                             Office of the USAID Inspector General’s Findings

 Subcontractor Performance           Symbion Power finally obtained foreign labor through its subcontractor;
 Problems (continued)                however, the subcontractor brought in the foreign workers under tourist
                                     visas instead of work visas. As a result, when the workers were notified
                                     that they could no longer work under the tourist visas, they left the
                                     country, and Symbion Power’s difficulty in finding qualified labor
                                     continued. The mission commented that, had Symbion Power notified the
                                     mission through the contractor that visas were a problem, the mission
                                     could have assisted in obtaining the required work visas.

 Lack of Timely Approvals            Black & Veatch contended that approval for critical tasks required for a
                                     fast-track project like this was delayed at the mission. For example, the
                                     contractor had prepared a detailed analysis of the various transportation
                                     options available to transport the generators, which were being built by
                                     Caterpillar in Germany. This analysis involved a cost assessment as well as
                                     an assessment of security risks in transporting the generators overland
                                     through insecure areas. According to the mission, the contractor originally
                                     had received approval from USAID’s Regional Acquisition Office in
                                     Bangkok but then was required to provide additional justification to the
                                     contracting officer in Kabul before the contract modification was signed
                                     for transporting the generators from Germany to Kabul. The mission
                                     agrees that all parties to the process should have been involved from the
                                     beginning in deciding how to transport the generators and that this
                                     particular approval took longer than expected. This one contract
                                     modification took two months to approve—a critical delay for a fast-track
                                     project.

 Lack of On Site Quality Assurance   Quality assurance oversight of construction activities is normally
                                     conducted on site, by either independently contracted engineers or the
                                     mission’s local staff. However, USAID/Afghanistan does not have this
                                     practice documented in its procedures, and in this case the mission did not
                                     have an on site presence. The mission stated that it was not sure why an
                                     on site quality assurance engineer had not been assigned to the project,
                                     but the mission agreed that one should have been assigned. Had an on
                                     site engineer been assigned to the project, the mission would have been
                                     aware of problems sooner.

 Inconsistent Communication          USAID/Afghanistan contended that it was unable to assist the contractor
 Between USAID and Black &           in moving the project forward because the contractor did not convey
 Veatch                              critical information to the mission promptly enough to be useful.
                                     Specifically, a contractor’s internal report, dated December 2008 and
                                     detailing problems in delivering the completed facility on time, was not
                                     provided until mid-January. Further, delays in customs clearance as well as
                                     the inability to obtain work visas were not communicated promptly to the
                                     mission. The mission contended that, had it known of all the problems the
                                     contractor was experiencing, it could have intervened sooner to help
                                     resolve the problems.




SIGAR Audit-10-6 Contractor Performance and Oversight                                                    Page 6
    Factors                              Office of the USAID Inspector General’s Findings

    Transportation and Customs           The project also suffered from a series of transportation delays.
    Delays                               Specifically, there were problems with clearing items through customs at
                                         border crossings and with finding drivers willing to transport items from
                                         the Pakistani border to Kabul. Also, items such as transmission towers and
                                         raw materials were delayed at border crossings.

Source: Office of the USAID Inspector General’s report.




STEPS TAKEN TO ADDRESS THE CAUSES OF PROJECT DELAYS AND REDUCE TOTAL PROJECT
COSTS
SIGAR found that both USAID and Black & Veatch have taken a number of steps to help ensure that all
18 generators were installed by December 2009, prevent any further delays beyond the end of March
2010, and help reduce overall project costs. These steps were taken in response to the Office of the
USAID Inspector General’s report, 9 SIGAR briefs provided to USAID and Black & Veatch managers in
Kabul during the course of our audit, and USAID-initiated actions. These steps include (1) the creation of
a project execution plan by Black & Veatch and related work plans, (2) USAID’s hiring of an independent
quality assurance firm which now has staff on site at the Kabul Power Plant, (3) an extensive internal
review of all AIRP task orders to identify systemic causes for the project delays and cost overruns, (4)
efforts to reduce total project costs by implementing lower-cost engineering options and seeking
voluntary fee reductions from Black & Veatch.

Project Execution Plan and Work Plan Prepared
Black & Veatch submitted a project execution plan in July 2009 to USAID describing how the firm
planned to manage construction efforts in the wake of Symbion Power’s release from the project. This
plan outlines a number of key operating concepts, identifies a series of critical risks to timely project
completion, and suggests that separate mitigation plans would be developed for each identified risk.
The plan describes the management strategy, concepts, and controls that will be implemented to help
ensure that the project is efficiently executed and managed. Identified risks include project funding,
inadequate construction and inventory records, resolution of remaining subcontracts, delays in
material/equipment deliveries, labor availability and productivity, safety and security events, and client
approvals.

In its response to the Office of the USAID Inspector General’s report, USAID officials noted that the
mission now has an overall implementation plan for the Kabul Power Plant focused on completing the
plant by March 31, 2010. The agency’s response notes that modification 17 to task order 9 puts the
implementation plan into operation by:

      •       Defining very specific deliverables and delivery dates for the different components of the power
              plant.

9
  A complete description of USAID actions taken to respond to the Office of the USAID Inspector General’s report is
included in the management comments section of that report.
SIGAR Audit-10-6 Contractor Performance and Oversight                                                       Page 7
     •   Requiring the contractor to prepare a work plan establishing the timeline for implementation,
         personnel requirements, proposed accomplishments toward achieving results, details of
         collaboration with counterparts and donors, management structure, proposed schedule, quality
         assurance/quality control plan and performance monitoring plan.

     •   Establishing dates for the submission of design and engineering drawings and documents.

     •   Requiring the submission of specific progress reports.

Quality Assurance and Quality Control Oversight Improved
Significant steps have been taken to improve both USAID’s quality assurance process and Black & Veatch
and its sub-contractor’s quality control procedures.10 These steps include the provision of on site quality
assurance oversight, increased contact between USAID and Black & Veatch staff, and increased visits by
the Contracting Officer’s Technical Representative (COTR) to the project site. USAID’s senior engineer in
Kabul noted that the biggest lesson he learned from his experience on the Kabul Power Plant is the
importance of having on site quality assurance in addition to having a USAID COTR assigned to the
project. In the wake of Symbion Power’s release from the project, USAID hired an independent
contractor to provide on site oversight. According to senior USAID officials, the agency also increased
the number of meetings between the COTR and Black & Veatch staff and required more on site visits by
the COTR to verify that the project remains on schedule.

Black & Veatch staff noted that they have instituted additional quality control procedures since June
2009 to ensure that ongoing and future work meets all contract requirements and specifications. During
the course of this audit, we reviewed and verified that these quality control procedures were in place.
During our visit to the plant, SIGAR noted examples of periodic progress reports provided to USAID, the
existence of sub-contractor quality control plans, and recent records of detailed quality control
inspections and testing.

USAID’s Review of Contracting Shortfalls and Problems
In March 2009, USAID’s office in Kabul completed an assessment of the structure and operations of the
$1.4 billion Afghanistan Infrastructure and Rehabilitation Program (AIRP) IQC with the Joint Venture. The
assessment notes an urgent need to strengthen the operations and performance of the Joint Venture,
which has missed a large number of extremely important milestones on the Kabul Power Plant and on a
number of other task orders under the IQC. The assessment identifies a number of planned actions.

As of January 2010, planned corrective actions and reported implementation progress included:

     •   Requiring the joint venture to prepare a project management plan for the AIRP. USAID
         completed and approved a project management plan for all AIRP projects.

     •   Improving project communication and developing more specific statements of work. USAID
         holds weekly project meetings to discuss all AIRP project progress and issues. USAID performs


10
  Quality assurance consists of agency attempts to monitor the effectiveness of a contractors’ quality control
procedures which should be designed to gauge that all contract terms and specifications, including quality of
materials and workmanship, are adhered to.
SIGAR Audit-10-6 Contractor Performance and Oversight                                                      Page 8
         weekly site visits to Kabul Power Plant, although some weekly site visits have been canceled due
         to the security office’s limitations in supporting these trips.

     •   Conducting independent cost estimates. USAID establishes independent government cost
         estimates for each AIRP project. Both the technical office and the contracting office review and
         approve each request for sub-contract approval.

     •   Investigating cost recovery options to address unacceptable project delays. USAID investigated
         and determined that liquidated damages were not an option under task order 9. However,
         when negotiating the increase in budget and time, the contracting office was able to get the
         contractor to agree to waive their fees for this extension.

     •   Requiring annual work plans. USAID now requires an annual work plan for each AIRP task order.
         These work plans are reviewed by the respective COTR and comments are transmitted to the
         contractor. The latest workplan submission and review cycle occurred in November 2009.

     •   Implementing independent quality assurance oversight. USAID has implemented independent
         on site quality assurance at the Kabul Power Plant. USAID receives weekly written reports of
         progress against milestones, engineering, and safety issues.

     •   Addressing USAID staffing limitations that limit the agency’s contract oversight capabilities.
         USAID is carrying out a recruitment and hiring effort to address staffing shortfalls.

Cost Control Efforts
USAID and Black & Veatch reduced total program costs by $5 million as a result of certain cost-saving
measures and a voluntary fee reduction by Black & Veatch. In the absence of these efforts, project
overrun costs would have exceeded the current total of $40 million. Specific actions include:

     •   USAID and Black & Veatch staff conducted a value engineering session at the Kabul Power Plant
         in July 2009 in order to identify appropriate ways to reduce project costs through lower-cost
         construction options. Several cost-saving ideas were identified and incorporated in modification
         17. USAID and Black & Veatch officials estimated these savings totaled $3.4 million.

     •   USAID requested that Black & Veatch reduce its fixed fee on a voluntary basis for work already
         completed and eliminate its fixed fee and management fees (that is, general and administrative
         expenses) for future work under modification 17. Black & Veatch agreed to eliminate its fixed
         fee with regard to future work, saving the government an estimated $1.6 million, but did not
         accept the other proposed reductions.

     •   USAID considered other cost recovery options such as asking Black & Veatch to pay for the extra
         fuel costs USAID had to cover as a result of relying on Kabul’s older, less efficient diesel power
         plant past the Kabul Power Plant’s target completion date, 11 but declined to pursue this option
         further given the cost-plus-fixed-fee nature of task order 9, which does not allow for liquidated
         damages.

11
  USAID estimated that the failure to complete the Kabul Power Plant’s first two blocks by December 2008 cost
USAID, which provided fuel support to Kabul’s other diesel powered plant during the winter of 2008/2009,
approximately $100,000 a day in extra fuel costs for a 90 day period from December 2008 to March 2009.
SIGAR Audit-10-6 Contractor Performance and Oversight                                                   Page 9
SIGNIFICANT RISKS TO SUSTAINABILITY EXIST
According to USAID officials in Washington, project sustainability is a top priority for the agency
worldwide and in particular Afghanistan. These officials noted that the United States and the GIRoA
could be left with “stranded assets” if project implementation and follow-up are not handled correctly.
They noted that, unlike Iraq, Afghanistan has a weak economy, a limited ability to generate government
revenues, an unskilled workforce, a problematic security environment, and an almost complete lack of
existing infrastructure. Despite early commitments by the GIRoA, it is now evident that the Afghan
government may not be able to pay for fuel costs for several years and USAID has already indicated its
willingness to cover the plant’s operations and maintenance (O&M) expenses for several more years
based on a planned request for proposals to be issued in early 2010. In addition to these revenue
concerns, SIGAR noted that the decision to build a dual use fuel plant capable of running on either diesel
or heavy fuel oil has significant sustainability implications. In the absence of any definitive studies, it is
not clear whether the Afghan government will ever have the required infrastructure or technical
capability to utilize heavy fuel oil, which requires special equipment and handling procedures in order to
avoid potentially irreparable damage to the plant’s generators.

GIRoA Commitments to Sustainability
The U.S. Government sought the participation of the GIRoA in deciding to proceed with the Kabul Power
Plant. On April 2, 2007, the Cabinet of the GIRoA approved the procurement of the plant and committed
to provide the following:

    •   Provide $20 million toward the capital cost of the power plant, with the balance funded by
        USAID.

    •   Pay for the fuel required to operate the plant.

    •   Implement and pay for the plant’s O&M expenses beginning one year after the plant’s
        completion.

    •   Commercialize the operations of Afghanistan’s electricity utilities sector in order to produce
        sufficient revenues to cover fuel costs and O&M expenses.

Section 611 (e) of the Foreign Assistance Act of 1961 provides that whenever certain types of funds are
proposed to be used for a capital assistance project exceeding $1 million, the USAID Mission Director
must certify that the country has the capability to effectively maintain and utilize the project. In June
2008, USAID’s Mission Director for Afghanistan certified that the USAID Office of Infrastructure,
Engineering and Energy in Kabul had concluded that the GIRoA would be able to meet these
commitments.

One key basis for this certification was the expectation that the GIRoA would commercialize its utility
sector which, for the Kabul area alone, is projected to suffer an operating loss of $250 million in 2010.
USAID and the GIRoA are seeking to turn the Kabul electric utility into a profitable entity, capable of
funding the Kabul Power Plant’s operating expenses. USAID has awarded two contracts to U.S. firms to
promote this specific objective and more broadly to increase the profitability of the utility sector across
Afghanistan.


SIGAR Audit-10-6 Contractor Performance and Oversight                                                Page 10
GIRoA Commitments Only Partially Met
The GIRoA did provide 148 acres for the Kabul Power Plant site and transferred $20 million to USAID,
however, efforts to commercialize the GIRoA’s electric utility operations remain to be fully
implemented—a process USAID officials said could take at least another five years. However, USAID
officials noted that commercialization efforts were significantly advanced on September 30, 2009, when
a memorandum of understanding was signed between the Ministry of Energy and Water and a new
privatized national utility created to operate outside the Ministry on a commercial basis. 12

USAID Support for Fuel Costs
While USAID has not yet provided any direct fuel support for the Kabul Power Plant, USAID did provide
fuel support for the North West Kabul Power Plant during the winter of 2008/2009 and the potential
exists that funds left over from this earlier request may be used to pay for future fuel needs at the Kabul
Power Plant.

In response to a request from the Afghan Minister of the Economy, USAID held back $28 million in funds
originally set aside for USAID’s contribution to the Afghan Reconstruction Trust Fund managed by the
World Bank. A total of $15.6 million in fuel support was provided to the North West Kabul Power Plant
during the winter of 2008/2009, leaving a balance of $12.4 million for additional fuel purchases or
possible return to the Trust Fund. In May 2009, USAID informed the GIRoA that it is responsible for
providing the operating costs, including fuel, for the Kabul Power Plant. Despite this communication, the
GIRoA has verbally requested fuel support for the Kabul Power Plant and other diesel-fired power plants
in the south of Afghanistan. The GIRoA has also formally requested that the $12.4 million in funds be set
aside for fuel support. USAID has not yet responded to this latest request.

Actual fuel costs and the potential level of support which may be requested by the GIRoA will depend on
the level of demand for Kabul Power Plant electricity. As noted in the Office of the USAID Inspector
General’s report, these costs could be substantial due, in part, to the configuration of the Kabul
transmission system. 13 The current segregation of Kabul into two distinct power transmission sectors
prevents the use of lower-cost alternative sources of electricity, such as imported power, in the sector
served by the Kabul Power Plant.

USAID Support for O&M Expenses Needed for Several Years
According to USAID’s sustainability certification, the principal strategy for facility-level O&M is the use of
outside professional contractors that have the skills and familiarity with the day-to-day and periodic
O&M requirements of a large power generation station. During the first year, O&M will be provided as
part of the installation contract financed by USAID. Beginning with the second year of operations,
however, the GIRoA committed to outsourcing and financing the O&M function. However, USAID has

12
   Originally scheduled for July 2009, the transition was temporarily blocked by the Minister of Energy and Water
citing several labor and inventory concerns which needed to be addressed. According to USAID officials, U.S. and
other donor officials prevailed upon the Minister to reconsider his position, leading to the signing of the
memorandum of understanding.
13
  Kabul is divided into two sectors: one receives electricity from hydroelectric plants as well as diesel plants, and
the other receives electricity from imported sources.
SIGAR Audit-10-6 Contractor Performance and Oversight                                                         Page 11
now concluded that the GIRoA will not be able to pay for O&M expenses for several years. USAID
officials noted that they are planning to issue a request for proposal in the near future for a multi-year,
follow-on O&M contract for the Kabul Power Plant. This O&M support contract will begin after the O&M
portion of modification 17 expires in April 2010.

While USAID plans to contract for the bulk of O&M support over the next several years, USAID and Black
& Veatch are seeking to develop the capabilities of the Afghans to maintain and operate the Kabul
Power Plant using their own personnel and resources. These efforts take the form of (1) training and
documentation requirements included in task order 9, 14 (2) the funding of a technical training institute in
Kabul which includes courses specifically designed to support the training of staff for the Kabul Power
Plant, and (3) ministry-level capability development, including training on establishing and maintaining a
dedicated budget for O&M expenses for all government-run facilities.

Sustainability Risks Associated with Dual Fuel Use
The decision by the GIRoA and the United States to build a dual fuel plant (that is, a plant capable of
operating on diesel or heavy fuel oil) has long-term implications for project costs and plant sustainability
if GIRoA staff or contractors do not properly manage and implement the more complex processes and
procedures required to operate such a plant. 15 As noted by senior Black & Veatch officials, the improper
use of heavy fuel oil could lead to the complete failure of the generators.

According to Black & Veatch staff, a senior GIRoA official advocated the option of a dual fuel plant since
heavy fuel oil is considerably cheaper than diesel fuel and would increase the chances that the GIRoA
could operate the plant with its own resources. Black & Veatch staff noted, however, that the full costs
of using heavy fuel oil include additional infrastructure investments, 16 handling costs, and O&M
expenses associated with the greater wear and tear placed on the generators. According to Black &
Veatch’s senior manager in country, a definitive assessment of the use of heavy fuel oil remains to be
prepared.

USAID and Black & Veatch staff considered the option of a diesel fuel only plant at their July 2009 value
engineering meeting. Potential savings include the removal of fuel holding tanks 2 and 3, which are
being built explicitly for the purpose of storing heavy fuel oil. Black & Veatch staff estimate that up to
$4 million could be saved if the plant was converted to a diesel-only plant. USAID staff declined to
pursue this option due to the political sensitivities surrounding this issue and prior commitments with
the GIRoA.

Finally, Black & Veatch officials noted that the GIRoA has agreed to limit the Kabul Power Plant’s first
two years of operation to diesel fuel only in order to ensure smooth plant operations at start-up. It is
unclear whether two years will provide GIRoA staff with sufficient time to develop or contract for the

14
  A limited number of Ministry of Energy and Water staff are being trained and utilized on the project. Black &
Veatch officials noted that additional staff and training would be provided as the plant gets closer to full
operational status.
15
   Heavy fuel oil solidifies at lower temperatures if not heated and is considered a lower grade oil requiring the use
of multiple additives and processing steps.
16
  Heavy fuel oil is not available in Afghanistan (as is the case with diesel fuel) and would require the creation of a
heavy fuel oil import and distribution network just for the Kabul Power Plant.
SIGAR Audit-10-6 Contractor Performance and Oversight                                                          Page 12
technical expertise need to operate a plant on heavy fuel oil and construct the fuel distribution network
needed to make this a viable option.



CONCLUSIONS
Current risks for the Kabul Power Plant focus on its long-term sustainability, which will be affected by
the GIRoA’s ability to generate sufficient revenue to pay for fuel and O&M expenses. USAID has taken
steps to assist the GIRoA with its ongoing commercialization efforts. Nonetheless, USAID officials believe
this process will take at least five years to complete and plans exist to cover the plant’s O&M costs for
several years after turnover to the GIRoA. Whether the Kabul electric utility will have sufficient revenues
in five years to assume these costs is open to debate. If the plant is not turned over to Afghan
authorities within this time frame, USAID may face the difficult decision of whether to continue funding
the plant’s operations or terminating U.S. involvement with the project and placing the plant’s future
operation at risk. SIGAR further found that long-term sustainability is complicated by the decision by the
GIRoA and USAID to construct a dual fuel instead of a diesel-only plant, providing the Afghans with a
technically sophisticated fueling option they may not have the capacity to sustain.



RECOMMENDATION
To help ensure the timely completion and sustainability of the Kabul Power Plant, SIGAR recommends
that the USAID Mission Director in Afghanistan:

    •   Produce a definitive study on the technical feasibility and advisability of using heavy fuel in the
        Kabul Power Plant and factor this information into plant completion decisions and any decisions
        regarding post-completion use of heavy fuel oil by the GIRoA.



COMMENTS
The U.S. Embassy Kabul and the USAID Mission in Afghanistan provided joint written comments on a
draft of this report. Black & Veatch provided written comments as well. These comments are provided in
appendix III and IV, respectively. In their response, the U.S. Embassy Kabul and USAID Mission in
Afghanistan indicated concurrence with the report’s findings and recommendation. They indicated that
a definitive study of the option to run the Kabul Power Plant on heavy fuel oil will be completed before
the end of March 2010. Black & Veatch’s comments addressed some factual issues and areas where it
believed additional clarification might help avert possible misunderstandings related to the project.

The U.S. Embassy Kabul and USAID Mission in Afghanistan, Black & Veatch, and Symbion Power also
provided technical comments which SIGAR incorporated into this report, as appropriate.




SIGAR Audit-10-6 Contractor Performance and Oversight                                              Page 13
APPENDIX I: SCOPE AND METHODOLOGY



This report discusses SIGAR’s review of the USAID-funded Kabul Power Plant project, which is scheduled
for completion by March 31, 2010. This report updates and builds upon the audit report issued by the
Office of the USAID Inspector General in November 2009, which provided a number of
recommendations designed to improve the management of the Kabul Power Plant contract. Given the
value of this project, the critical role it plays in advancing U.S. strategic interests in Afghanistan, and the
number of outstanding issues surrounding the plant’s completion and operations, we concluded that a
follow-on assessment conducted by SIGAR staff was warranted.

To identify the basis for project delays and cost overruns, we reviewed the Office of the USAID Inspector
General’s November 2009 report and reviewed documentation from and conducted interviews with
USAID energy sector officials at the U.S. Embassy in Kabul as well as Black & Veatch staff in Washington,
D.C. and Kabul, and Symbion Power staff in Washington, D.C.

To assess the actions taken to address problems identified by the Office of the USAID Inspector General
and SIGAR, we reviewed documentation provided by USAID, Black & Veatch, and Symbion Power;
interviewed agency and contractor officials; and conducted an on site visit to the Kabul Power Plant
from September 1-3, 2009.

To evaluate the long-term sustainability of the Kabul Power plant, we reviewed documentation provided
by USAID, Black & Veatch, and Symbion Power; interviewed agency and contractor officials in both
Washington, D.C., and Kabul; and met with a senior GIRoA energy official to discuss the Afghan
government’s plans for the Kabul Power Plant.

This report is part of a series of SIGAR audits of major infrastructure contracts funded by the United
States in Afghanistan. We conducted work from August to December 2009 in Kabul, Afghanistan, and
Washington, D.C., in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
the evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. The audit was conducted by SIGAR under the authority of Public Law 110-181, Section 1229,
and the Inspector General Act of 1978, as amended.




SIGAR Audit-10-6 Contractor Performance and Oversight                                                  Page 14
APPENDIX II: TASK ORDER 9 CONTRACT MODIFICATIONS


 Modification       Date            Total                 Nature/Purpose of Modification
  Number          Approved       Estimated
                                    Cost
                                (in millions)

    Letter        5/24/2007          $3.8       Authorize negotiations and provide payment for
   Contract                                     securing manufacturing slots with Caterpillar Power
                                                Generation Systems for long lead equipment.

      1           6/16/2007           3.8       Correct certain accounting and appropriation
                                                information.

      2           7/14/2007          29.3       Increase the non-refundable payment for holding
                                                manufacturing slots and add the following services
                                                in the statement of work: negotiation and award of
                                                equipment procurement, review and analysis of
                                                design package, and initiation of tenders for
                                                balance-of-plant construction and other
                                                components.

  3/Original      7/31/2007         125.8       Replace the Letter Contract and provide additional
  Task Order                                    funding and contractual authority for Louis Berger
                                                Group, Inc./Black & Veatch Joint Venture to place
                                                orders and perform work necessary to assure the
                                                delivery of 105 megawatts of additional generating
                                                capacity.

      4          12/23/2007         126.4       Add perimeter/security wall.

      5           4/24/2008         126.4       Adjust records to reflect the GIRoA’s financial
                                                contribution to the project.

      6           5/8/2008          134.4       Add site civil works design and construction.

      7           5/9/2008          137.9       Add camp facilities.

      8           5/15/2008         162.0       Add logistic support including shipping the
                                                generators from point of manufacture to Kabul.

      9           5/15/2008         177.8       Add 110 kilovolts sub-station/intertie to connect the
                                                power plant to the existing 110 kilovolts
                                                transmission lines.

SIGAR Audit-10-6 Contractor Performance and Oversight                                             Page 15
 Modification         Date                  Total                Nature/Purpose of Modification
  Number            Approved             Estimated
                                            Cost
                                        (in millions)

       10            6/9/2008              205.8        Add balance-of-plant construction costs and extend
                                                        completion date to 8/31/09.

       11            8/3/2008              251.5        Add camp services, facility maintenance, and
                                                        security services, and increase balance-of-plant and
                                                        other direct costs.

       12           9/30/2008              257.9        Provide for additional staffing requirements.

       13           10/16/2008             257.9        Provide incremental funding.

       14           12/7/2008              259.0        Add supervision and management of fuel delivery.

       15           12/17/2008             259.0        Provide incremental funding.

       16           8/31/2009              259.0        Extend the completion date to October 31, 2009.

       17           10/20/2009             301.6        Revise the statement-of-work, increase sub-contract
                                                        costs, add operations and maintenance expenses for
                                                        6 months, extend the completion date to May 31,
                                                        2010, and provide incremental funding.

       18           12/8/2009             $301.6        Provide incremental funding.

Source: USAID Mission in Afghanistan.




SIGAR Audit-10-6 Contractor Performance and Oversight                                                   Page 16
APPENDIX III: COMMENTS FROM U.S. EMBASSY KABUL AND USAID MISSION TO AFGHANISTAN
The U.S. Embassy Kabul and USAID Mission to Afghanistan provided joint comments. However, each
entity signed the comments separately. We are including both sets of identical comments below to
show that each agency signed the comments.




SIGAR Audit-10-6 Contractor Performance and Oversight                                       Page 17
SIGAR Audit-10-6 Contractor Performance and Oversight   Page 18
SIGAR Audit-10-6 Contractor Performance and Oversight   Page 19
SIGAR Audit-10-6 Contractor Performance and Oversight   Page 20
APPENDIX IV: COMMENTS FROM BLACK & VEATCH




(This report was conducted under the project code SIGAR-006-I).




SIGAR Audit-10-6 Contractor Performance and Oversight             Page 21
(This report was conducted under the project code SIGAR-09-006-I)

SIGAR Audit-10-6 Contractor Performance and Oversight               Page 22
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
